AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE 

  AWARD TO THE CITY OF BALTIMORE POLICE 

      DEPARTMENT CRIME LABORATORY 

           BALTIMORE, MARYLAND 



         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


         Audit Report GR-30-14-002 

                 April 2014 

This Page Left Intentionally Blank.
      AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

   AWARD TO THE CITY OF BALTIMORE POLICE DEPARTMENT

                   CRIME LABORATORY

                 BALTIMORE, MARYLAND


                           EXECUTIVE SUMMARY


      The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of National Institute of Justice (NIJ) cooperative agreement
numbers 2011-DN-BX-K463 ($669,143) and 2012-DN-BX-0067 ($511,749),
awarded to the City of Baltimore Police Department (BPD) Crime Laboratory. The
NIJ funding was part of the fiscal years (FY) 2011 and 2012 DNA Backlog Reduction
Program. The goal of the DNA Backlog Reduction Program is to assist eligible
States and units of local government in reducing the number of forensic DNA and
DNA database samples awaiting analysis.

       The objective of our audit was to review performance in the following areas:
(1) internal control environment, (2) federal financial reports and progress reports,
(3) drawdowns, (4) budget management and control, (5) expenditures, (6) contract
management, (7) program income, and (8) program performance and
accomplishments.

      Our audit found that the transactions we reviewed were, in general, properly
authorized, supported, and charged to the cooperative agreement. However,
during the audit, we found BPD‘s official accountable property records did not
contain all grant-funded equipment items that should have been included and they
did not conduct a physical inventory of the equipment purchased with federal funds,
as required by the grant. Therefore, we recommend that BPD physically inventory
assets purchased with award funds at least once every 2 years, and ensure the
department’s official accountable property list contains all award-funded equipment
items that should be included. Additionally, while we verified that the BPD Crime
Laboratory has met, in part, the objectives of the award, we could not determine
the number of DNA backlogged cases during the award period.

      We discussed the results of our audit with BPD Crime Laboratory officials and
have included their comments in the report.
                                     Table of Contents

                                                                                                Page

INTRODUCTION ..........................................................................................1

FINDINGS AND RECOMMENDATIONS ..........................................................3

  Internal Control Environment .........................................................3

    Single Audit ....................................................................................3

    Financial Management System ..........................................................3

  Reporting ........................................................................................4

    Federal Financial Reports..................................................................4

    Progress Reports .............................................................................5

  Program Performance .....................................................................5

    DNA Analyst Staffing Levels..............................................................6

  Drawdowns .....................................................................................7

  Budget Management and Control ....................................................7

  Cooperative Agreement Expenditures .............................................8

    Personnel Costs...............................................................................8

    Travel and Other Costs .................................................................. 10

    Equipment.................................................................................... 10

  Monitoring of Consultants and Contractors ................................... 11

  Recommendations......................................................................... 11

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY............................12

APPENDIX II - BALTIMORE POLICE DEPARTMENT’S RESPONSE TO THE

  DRAFT REPORT ..................................................................................... 14

APPENDIX III - NATIONAL INSTITUTE OF JUSTICE RESPONSE TO THE 

  DRAFT REPORT ..................................................................................... 16

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ................ 18

                                  INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an audit of
National Institute of Justice (NIJ) cooperative agreement numbers 2011-DN-BX­
K463 ($669,143) and 2012-DN-BX-0067($511,749), awarded to the City of
Baltimore Police Department (BPD) Crime Laboratory. 1 The NIJ funding was part of
the fiscal years (FY) 2011 and 2012 DNA Backlog Reduction Program. The goal of
the DNA Backlog Reduction Program is to assist eligible States and units of local
government in processing, recording, screening, and analyzing forensic DNA and/or
DNA database samples, and to increase the capacity of public forensic DNA and
DNA database laboratories to process more DNA samples, thereby helping to
reduce the number of forensic DNA and DNA database samples awaiting analysis.

      Specific goals that the BPD Crime Laboratory sought to achieve during the
award period were to: (1) Reduce the forensic DNA casework backlog though
overtime and outsourcing; (2) Increase the capacity of the laboratory by
purchasing equipment, such as Sperm Hyliter accessories for an automated
microscope, three freezers, five computers with peripherals, and by hiring three
Evidence Technicians and DNA Criminalists; and (3) Provide the required continuing
education for analysts.

Audit Approach

       We tested compliance with what we considered the most important
conditions of the cooperative agreement. Unless otherwise stated in the report, we
used the Office of Justice Programs (OJP) Financial Guide (Financial Guide) to
assess BPD’s performance and compliance with the requirements of the cooperative
agreement. 2 Specifically, we tested BPD’s:

   •	 Internal Control Environment to determine whether the internal controls
      in place for the processing and payment of funds were adequate to safeguard
      the funds awarded to the BPD Crime Laboratory and ensures compliance with
      the terms and conditions of the NIJ cooperative agreements;

   •	 Reporting to determine if the required federal financial reports and progress
      reports were submitted timely and accurately reflect the activity of the
      cooperative agreement;

   •	 Drawdowns to determine whether drawdowns were adequately supported
      and if the BPD Crime Laboratory was managing receipts in accordance with
      federal requirements;

        1
          The BPD Crime Laboratory is the agency section that is responsible for analyzing evidentiary
material associated with criminal investigations for all local law enforcement agencies within the City
of Baltimore. The BPD Crime Laboratory does not perform analysis on DNA database samples.

        2
          The Financial Guide serves as a reference manual that provides guidance to award recipients
on the fiduciary responsibility to safeguard award funds and to ensure funds are used appropriately.
OJP requires award recipients to abide by the requirements in the Financial Guide.


                                                  1

   •	 Budget Management and Control to determine whether financial records
      appropriately accounted for funds received and disbursed, and if BPD Crime
      Laboratory expenditures were in accordance with approved budget
      categories;

   •	 Cooperative Agreement Expenditures to determine whether costs
      charged to the grant, including payroll, fringe benefits, and overtime were
      accurate, adequately supported, and allowable, reasonable, and allocable. In
      addition, we tested expenditures related to the purchase of accountable
      property and equipment to determine whether the BPD Crime Laboratory
      recorded accountable property and equipment in its inventory records,
      identified it as federally funded, and utilized the accountable property and
      equipment consistent with the NIJ cooperative agreement;

   •	 Monitoring of Contractors to determine if the BPD Crime Laboratory

      provided adequate oversight and monitoring of its contractor; and


   •	 Program Performance and Accomplishments – to determine whether the
      BPD Crime Laboratory made a reasonable effort to accomplish stated
      objectives.

      The award did not include program income, matching funds, or indirect costs.
The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Appendix I contains additional information
on our objective, scope, and methodology.




                                        2

                  FINDINGS AND RECOMMENDATIONS

              COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       Our audit found that the transactions we reviewed were, in general,
       properly authorized, supported, and charged to the cooperative
       agreement. However, we found that the City of Baltimore Police
       Department official accountable property records did not contain all
       award-funded equipment items that should have been included.
       Further, the BPD did not conduct a physical inventory of the equipment
       purchased with federal funds, as required by the grant. Based on our
       audit results, we made one recommendation to strengthen the internal
       controls over award-funded equipment.

Internal Control Environment

       According to the OJP Financial Guide, grant recipients are responsible for
establishing and maintaining an adequate system of accounting and internal
controls. An acceptable internal control system provides cost controls to ensure
optimal use of funds. Award recipients must adequately safeguard funds and
ensure they are used solely for authorized purposes. While our audit did not assess
BPD’s overall system of internal controls, we did review the internal controls of
BPD’s financial management system specific to the administration of grant funds
during the periods under review.

Single Audit

       The Office of Management and Budget (OMB) Circular A-133, Audits of
States, Local Governments and Non-Profit Organizations (OMB Circular A-133)
requires that non-federal entities that expend at least $500,000 a year in federal
awards have a Single Audit conducted of its financial statements. 3 We reviewed the
City of Baltimore’s Single Audit reports for FY(s) 2009, 2010, and 2011, which
encompassed the BPD, and found that the reports did not disclose any weakness,
noncompliance issues, or cross-cutting findings related to the grants under review. 4

Financial Management System

       We interviewed key personnel at the BPD Crime Laboratory, including the
Director and Biology Unit Supervisor, and pertinent BPD officials regarding the
financial management system, record keeping practices, and methods for ensuring
adherence to the terms and conditions of the cooperative agreements. We also
reviewed written policies and procedures and accounting records to assess its risk


       3
          The purpose of the single audit is to determine whether the financial statements and
schedule of expenditures of federal awards are presented fairly in all material respects and in
conformity with generally accepted accounting principles.
       4
           At the time of our audit, FYs 2009, 2010, and 2011 were the most current available.


                                                  3

of non-compliance with laws, regulations, guidelines, and terms and condition of
the grant. Based upon our review, we found that the BPD’s internal control
environment includes adequate separation of duties and controls over the financial
management system. However, BPD did not perform an annual physical inventory
of equipment since 2008; this issue is discussed later in the “Cooperative
Agreement Expenditures” section of this report.

Reporting

       According to the OJP Financial Guide, award recipients are required to submit
both financial and program progress reports to inform awarding agencies on the
status of each award. Federal Financial Reports (FFRs) should detail the actual
expenditures incurred for each quarterly reporting period, while progress reports
should be submitted semiannually and describe the performance activities and
achievements of the project supported by each award.

      Because accurate and timely FFRs and progress reports are necessary to
ensure that DOJ awarding agencies can effectively monitor award activities and
expenditures, we reviewed BPD reports for cooperative agreement numbers 2011­
DN-BX-K463 and 2012-DN-BX-0067.

Federal Financial Reports

        DOJ awarding agencies monitor the financial performance of each award via
FFRs. According to the OJP Financial Guide, FFRs should be submitted within 30
days of the end of each quarterly reporting period. Even when there have been no
outlays of award funds, a report containing zeroes must be submitted. Awarding
agencies may withhold funds or future awards if reports are submitted late, or not
at all.

       To verify the timeliness of the FFRs, we tested the last 10 reports submitted
as of July 24, 2013, which included award activity through June 30, 2013. 5 We
compared the submission date of each report to the date each report was due, and
found that all FFRs were submitted on time.

        The Financial Guide indicates that an awardee’s accounting system for
reporting must support all amounts reported on the FFRs. To verify the accuracy of
the FFRs, we discussed the process for submitting FFRs with the responsible BPD
officials and compared the amounts reported on the last 10 FFRs to expenditures
recorded in the awardee’s accounting records. Based on our testing, we found that
expenditures reported on three of the FFRs contained minor errors that were
corrected and reconciled to official accounting records.




       5
         Seven FFR’s were submitted for cooperative agreement 2011-DN-BX-K463 and three were
submitted for cooperative agreement 2012-DN-BX-0067.


                                              4

Progress Reports

       While FFRs report award financial activity, progress reports describe the
project status and accomplishments of the DOJ supported program or project.
Progress reports should also describe the status of the project and compare actual
accomplishments to anticipated program objectives. According to the Financial
Guide, award recipients are required to submit progress reports every six months
during the performance period of the award. Progress reports are due 30 days
after the end of each semi-annual reporting period, June 30 and December 31.
DOJ awarding agencies may withhold award funds if awardees fail to submit
accurate progress reports on time.

      To assess whether the BPD Crime Laboratory submitted progress reports on
time, we reviewed four progress reports covering the 2011-DN-BX-K463
cooperative agreement and two progress reports for the 2012-DN-BX-0067
cooperative agreement. We found that progress reports were generally submitted
on time.

      We also reviewed reported program achievements detailed in these same
progress reports, to determine if BPD Crime Laboratory achievements and goals
were consistent with its stated program goals. According to its award
documentation, goals of the program are to: (1) Reduce the forensic DNA casework
backlog though overtime and outsourcing; (2) Increase the capacity of the
laboratory by purchasing equipment and hiring three Evidence Technicians and DNA
Criminalists; and (3) Provide the required continuing education for analysts.

       At the time of our testing, we were able to determine the BPD Crime
Laboratory expended monies to pursue, in part, all three of its project goals.
Specifically, we reviewed documentation that evidenced the BPD Crime Laboratory
paid the salaries of five employees dedicated to the award (three Criminalists and
two Evidence Technicians), overtime for other DNA employees, and payment of
DNA employees travel and registration fees for training events. Also, the BPD
Crime Laboratory purchased several equipment items with the FY 2011 award,
including a Sperm Hyliter, Power Protection System, five desktop computers, and
three laboratory freezers.

Program Performance

       To determine if the BPD Crime Laboratory reduced its DNA backlog cases, we
found that the laboratory keeps track of evidence submitted and requested for
analysis by the BPD. The BPD Crime Laboratory utilizes two in-house databases;
one for serology analysis and the other for DNA analysis. When evidence is
submitted to the serology unit and requested for analysis the date is tracked as
case received through case completed. Analysis of DNA is contingent upon the
identity of DNA presented on evidence submitted and analyzed in the serology unit.
Also, when DNA evidence is submitted to the DNA unit and requested for analysis
the date is tracked as case received through case completed.




                                         5

       We obtained both the serology and DNA analysis databases; however, we
were not able to assess the data presented in the databases. The serology and
DNA databases are not linked and we could not determine the length of time
evidence was submitted in serology to the date the evidence was received in the
DNA unit. 6 Further, we could not replicate the data in the DNA database to chart
the number of backlogged DNA cases during the award period. As a result, we
could not determine if the cooperative agreement helped reduce the DNA backlog.
Officials at the BPD Crime Laboratory stated that NIJ should develop a database
system for all laboratories who receive federal funding to capture DNA backlog
cases. In our view, program performance must be assessed throughout the award
term to help determine if funds are being used to meet program objectives and to
make adjustments if necessary.

DNA Analyst Staffing Levels

       According to the FY 2011 Backlog Reduction Program documentation, BPD
Crime Laboratory stated that it would hire three Evidence Technicians and three
additional Criminalists to conduct analyses on forensic DNA cases. We determined
that the FY 2011 award has been used to hire two Evidence Technicians and three
Criminalists. According to a BPD Crime Laboratory official, the number of evidence
technicians was reprogrammed due to fewer responsibilities as originally projected. 7

       In order to determine the level of federal support for DNA analyst positions
provided to the BPD Crime Laboratory, we obtained a breakdown of funding sources
for the DNA positions from FYs 2009 to 2014. 8 This data is provided in Exhibit 1.




        6
         NIJ's definition of backlog is any case over 30 days from the time evidence is received in the
Laboratory until the analysis is complete.
        7
          A BPD Crime Laboratory official stated the three hired Criminalists were originally hired as
contractual serologists using non DOJ funds; however, they were retained and hired as Criminalists
with the FY 2011 award.

       8
          This official added that the FY 2013 listed positions are funded through the FY 2011
cooperative agreement, and FY 2014 listed positions are funded through the FY 2012 cooperative
agreement.


                                                   6

       Exhibit 1 : City of Baltimore Police Department Crime Laboratory 

                           DNA Analyst Funding Sources 

            FY 2009-2014 (City of Baltimore vs. Federal Funding) 


                                         FY 09      FY 10     FY 11    FY 12    FY 13*    FY 14*
     City of Baltimore
     General Fund Fill ed                 10            11      10       12        12        14




Drawdowns

       To obtain DO] award money, award recipients m ust electronically request
award funds via drawdowns. The Financial Guide states that award recipients
shou ld only req uest federa l award f unds when they incur or anticipate project costs .
Therefore, recipients should time their req uests for award funds to ensure they will
have on ly the minimum federal cash on hand required to pay actua l or anticipated
costs within 10 days .

        According to BPD personnel, drawdown requests are based on
reimbursements of expenses. To ensure that BPD requested funds properly and
kept minimum cash on hand, we ana lyzed its drawdowns to date and compared the
overa ll amount to the cooperative agreement 20 U -DN-BX-K463 accounting
records. Overa ll, we found that the amounts drawn down did not exceed the
expenditures in the accounting records . As of September 30, 2013, the grantee
had not drawn down any funds on cooperative agreement 20 12-DN-BX-0067 . 9

Budget Management and Control

       Awardees shou ld expend funds according to the budget approved by the
awarding agency and included in the fina l award . Approved award budgets
document how much the recipient is authorized to spend in high-level budget
categories, such as personne l, supplies, and contractors . The Financial Guide also
states that award recipients may request a modification to approved award budgets


        9 NIJ restr icts the obligation, expend it ure, or drawdowns of the 2012-DN-BX-0067
cooperative agreement until all funds from the 2011-DN - BX-K463 cooper ative agreement are
expended. NIJ DNA Backlog Reduction Program project per iod of the award lasts for 18 months. The
project per iod fo r the 2011 DNA Backlog Red uction award was October 1, 2011 - March 31 , 2013.
BPD Crime l abor atory officials obtained a no-cost extension for the 2011 award, ther efore extend ing
the 2011 award until March 31 , 2014. As a result, the FY 2011 award project per iod overlapped with
the FY 2012 award project per iod.


                                                   7

to reallocate amo unts between various budget categories within the same award .
No prior approval is req uired if the reallocations between budget categories do not
exceed 10 percent of the total award amount. We compared the actual amounts
spent in each budget category to the budgeted amounts in the same categories .
For cooperative agreement 2011-DN-BX-K463, the grantee adhered to the Financial
Guide requirements . As of September 30, 2013, the grantee had not drawn down
any funds on cooperative agreeme nt 20 12-DN-BX-0067 .

Cooperative Agreement Expenditures

        According to 2 C. F.R. § 225 Cost Principles for State, Local, and Indian Tribal
Governments, costs are allowable if they are reasonable, consistently app lied,
adequately documented, comply with policies and procedures, and conform to any
limitations or exclusions specified in applicable criteria. As of September 30, 20 13,
the award 's subsidiary accounting ledger reported $476,6 15 in project costs
associated with cooperative agreement number 201 1-DN - BX- K463 and no costs
associated with award 20 12-DN-BX-0067 . We tested $178,0 12 (37 percent) of
personnel costs including the associated fringe, overtime, equipment, travel,
contracts, and other costs charged to the FY 2011 cooperative agreement, and
determined that t he rev iewed expenses were allowable . These costs a re prov ided
in Exhibit 2 .

                           Exhibi t 2: SUMMARY OF COSTS
                      COOPERATIVE AGREEMENT 2011-DN-BX-K463

                                     Total General       Total Costs Tested     Questioned
         Type of Cost             Ledger Costs ($)               ($)             Costs ($)
   Personnel                                   241 , 147              47,883                 0
   Frin e Benefits                              50734                   7924                 0
   Overtime                                     68126                   7067                 0
   Equipment                                    41046                  39576                 0
   T ravel                                       2887                   2887                 0
   Contractual                                  70 125                 70 125                0
   other                                         2550                   2550                 0
                     T OTAL                 $ 476 6 1 5            $ 178 01 2                0
   Source . City of Ba lti more Police Department accounting records

Personnel Costs

       The personnel costs of the cooperative agreement include t he total salary
and fringe benefits costs of three dedicated DNA Analysts, two dedicated evidence
technician , and, on an as-needed basis, other laboratory analysts working overtime.
To gain an understanding of the bi-weekly pay ro ll process, we interviewed BPD
ma nagement perso nnel and Crime Laboratory staff. Employees are required to
complete attendance records and record all time worked and leave ta ken. Once the
employees complete the attenda nce reco rd t hey submit it to their supervisor for
review . BPD Crime La bo ratory perso nnel told us that afte r t he attendance records
are reviewed by t he supervisor, they are batched and provided to t he
administrative staff for entry into t he labor distribution system . The salary and
fringe benefit payments for t he employees exclusively dedicated to the grant


                                                 8

project are automatically generated each pay period based on the employee’s
payroll and work project information entered into the labor distribution system.
The Director of the Crime Laboratory approves each attendance record before it is
transferred for processing through a central payroll system. All BPD payrolls are
processed through the City of Baltimore’s central payroll system, which interfaces
with BPD’s financial management system, CityDynamics.

       As needed, DNA analyst personnel working overtime on the award record
their hours on an individual overtime report and charge the cooperative agreement
for overtime hours plus the employer’s share of FICA. Overtime pay is processed
as time and a half beyond the employee’s normal daily shift.

      Salaries and Fringe Benefits

       We tested the salary and fringe benefits of the five employees dedicated to
the award during two non-consecutive pay months. We verified each employee’s
bi-weekly salary charged to the award to the bi-weekly calculation of each
employee’s salary based on payroll documentation. When BPD employees work on
cooperative agreements, BPD incurs costs associated with providing its employees
fringe benefits such as payroll taxes, health insurance, and pension plan
contributions, which is allowable under the cooperative agreement. As part of our
payroll testing, we recalculated payroll taxes, retirement plan contributions, and
health insurance costs charged to the award based on the employee fringe benefits
rates. Also, we conducted interviews with the five employees dedicated to the
award, reviewed the general ledger, and confirmed these employees did not charge
overtime to the grant. Overtime worked by these employees is paid from the City’s
budget and not charged to the grant. Overall, we found that each employee’s
salary and fringe benefits were accurately charged to the award, and the charges
were supportable and allowable under the conditions of the award.

      Overtime

       Overtime is only allowable for employees not dedicated to the award.
Specifically, overtime is charged to the grant by Crime Laboratory personnel other
than those who would normally charge the award. In testing $68,126 of the
charges to the award for employees receiving overtime pay, we judgmentally
selected the pay of seven DNA analyst employees who are not dedicated to the
cooperative agreement, totaling $7,067. Our tests included verifying the
employees’ regular pay rate and the associated employer portion of FICA.
Additionally we tested three attributes of the overtime charges: (1) Do the
overtime hours per the employee’s timesheet equal the hours reported on the pay
history, (2) Was the overtime timesheet approved by the supervisor, and (3) Was
the salary and FICA correctly allocated to the payroll records. Based on our
analysis, we take no exceptions to the overtime charges.




                                         9

Travel and Other Costs

       We tested 100 percent of transactions from the categories of Travel and
Other Costs from cooperative agreement 2011-DN-BX-K463, totaling $5,437, to
determine if the charges were allowable and allocable to the award. Based on our
testing, we determined that the sampled transactions were allowable. 10

Equipment

      The BPD Crime Laboratory used award funds to purchase 10 laboratory
equipment items, totaling $39,576. According to the OJP Financial Guide, property
records must be maintained for equipment acquired under an award. Among other
items, the award recipient must take a physical inventory of the equipment and
reconcile the results with the property records at least once every 2 years.

       BPD Property Unit maintains a property inventory system that reports all
equipment purchased by the BPD Crime Laboratory. During our audit, the BPD
Property Unit provided its policy manual to support its property management
procedures, as well as an inventory report of equipment purchased with grant-
funds. We determined that this manual requires a physical inspection of equipment
and property records to be reconciled on an annual basis. However, we found that
this policy was not enforced and the inventory report did not contain all of the
Crime Laboratory's award-funded equipment, including three items valued at
$16,958 (1 freezer, a Sperm Hyliter, and a Power Protection System). 11 According
to an official from the BPD Property Unit, the last full inventory was completed in
2008. This official also stated that the equipment items were not entered into
BPD’s property inventory system due to shortage of staff.

      We also physically verified all 10 equipment items throughout the laboratory
were tagged as federally funded and included the grant’s accounting code. We
confirmed that these equipment items existed and were being used as intended by
the grantee.

      We recommend that NIJ ensure that all grant-funded equipment is properly
recorded and reconciled to a physical inventory at least once every 2 years in
accordance with federal regulations.




        10
             We tested 1 transaction within the category of Other Costs totaling $2,550 that was
comprised of 12 DNA employees training workshop registration fees. Additionally, we tested 1
transaction within the category of Travel totaling $2,887 that included costs for travel to a DNA
identification training workshop for 2 DNA employees.
        11
            We do not question the three property items as unallowable or unsupported costs because
we physically verified their locations throughout the laboratory. We also determined that these items
were approved in the award budget and they are being used as stated in the award’s goals and
objectives.


                                                  10

Monitoring of Consultants and Contractors

      During our audit, we interviewed the BPD management personnel and
reviewed award-related documentation, including the vendor service contract.
Based on our review, we determined that NIJ approved for services to be provided
by a consultant and an outside vendor service, totaling $113,144. A review of the
consultant agreement revealed that a serologist worked on a case-by-case basis,
performed biological screening examinations of evidence, and identified evidence
samples suitable for DNA testing for the BPD Crime Laboratory. We tested
100 percent of consultant expenses, totaling $22,500 and determined that invoices
submitted for reimbursement were accompanied by adequate supporting
documentation with evidence that the expenses billed were actually incurred by the
consultant.

       Additionally, a review of the vendor service contract revealed that the BPD
Crime Laboratory outsourced DNA laboratory work to Orchid Cellmark, Inc. We
verified that as of September 30, 2013, $47,625 in expenses charged to the grant
were properly authorized, supported, and allowed under the cooperative
agreement. Overall, BPD’s management of funds and monitoring of the awards’
consultant and vendor service contract was adequate to ensure compliance with
award requirements.

Recommendations

We recommend that OJP:

   1.	 Ensure that BPD complies with award requirements that require assets
       purchased with award funds to be physically inventoried at least once every
       2 years, and ensure the department’s official accountable property list
       contains all award-funded equipment items that should be included.




                                        11

                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of this performance audit was to determine whether
reimbursements claimed for costs under the cooperative agreement reviewed were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the cooperative agreement. The objective
of our audit was to review performance in the following areas: (1) internal control
environment, (2) federal financial reports and progress reports, (3) drawdowns,
(4) budget management and control, (5) expenditures, (6) contract management,
(7) program income, and (8) program performance and accomplishments.

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

       Our audit concentrated on cooperative agreement numbers 2011-DN-BX­
K463 ($669,143) and 2012-DN-BX-0067 ($511,749) awarded to the City of
Baltimore Police Department Crime Laboratory by the National Institute of Justice.
The BPD Crime Laboratory uses these funds to process and analyze forensic DNA
samples in order to reduce the number of forensic DNA cases awaiting analysis.
We reviewed cooperative agreement activities and transactions beginning with
inception of the award on October 1, 2011, through the end of September 30,
2013.

       In conducting our audit, we performed judgmentally selected, non-statistical
sample testing in those areas we deemed critical to the award requirements.
Judgmental sampling design was applied to obtain broad exposure to numerous
facets of the reimbursements reviewed. This non-statistical sample design does not
allow projection of the test results to all payroll expenditures. Our sample testing
was conducted in the following areas:

   •	 Drawdowns. We analyzed BPD Crime Laboratory overall drawdowns of
      $474,624 for the DOJ award from the date of award obligation, August 19,
      2011, through August 6, 2013. The overall drawdowns did not exceed the
      total expenditures per the cooperative agreement’s subsidiary accounting
      ledger.

   •	 Payroll. We interviewed BPD award management personnel regarding the
      charging of personnel and fringe benefits costs to the cooperative
      agreement. To determine whether the cooperative agreement’s labor and
      fringe benefits costs were supported and allowed, we judgmentally selected
      employees to test from two non-consecutive months of labor and fringe
      benefits charged to the award, during August 2012 and March 2013. We


                                         12

       tested personnel including fringe costs totaling $55,807 out of $291,881
       charged to the cooperative agreement. We recalculated salary figures based
       on the BPD’s payroll records of salaries and agreed fringe benefits rates.
       There were no exceptions noted in our testing, and the labor and fringe
       benefits costs charged to the cooperative agreement were supported and
       allowable.

  •	   Transactions. To test the cooperative agreement’s transactions for
       authorizations, approvals, and sufficient supporting documentation, we
       judgmentally selected 18 non-payroll transactions totaling $116,607 out of
       $476,615 charged to the cooperative agreement. We analyzed the
       transactions to determine if the costs were properly authorized, classified,
       recorded, and supported.

  •	   Contract Management. We reviewed BPD’s Crime Laboratory consultant
       agreement, outsource vendor service contract and interviewed BPD’s
       management personnel.

       In addition, we interviewed BPD officials regarding program income and
determined the grantee did not incur any program income. Furthermore, we
reviewed the timeliness and accuracy of financial status and progress reports and
reviewed the internal controls for the cooperative agreement number 2011-DN-BX­
K463. However, we did not test the reliability of the internal control procedures or
the financial management system as a whole.




                                         13

                                                                                                 APPENDIX II

     BALTIMORE POLICE DEPARTMENT’S RESPONSE TO THE DRAFT
                           REPORT




                           BALTIMORE POLICE DEPARTMENT


Stephanie Rawlings-Blake                                                                                     Anthony W. Batts
        Mayor                                                                                             Police Commissioner



        Troy M. Meyer

        Regional Audit Manager

        Washington Regional Audit Office

        Office of the Inspector General

        U.S. Department of Justice

        1300 North 17th Street, Suite 3400

        Arlington, VA 22209


        April 11, 2014

        Dear Mr. Meyer,

        This letter is in response to the audit report for the grant numbers 2011-DN-BX-K463 and 2012-DN-BX-0067
        awarded to the City of Baltimore's Police Department Crime Laboratory from the National Institute of Justice.

        It was determined that the official accountable property record system of the Baltimore Police Department did
        not contain all equipment items purchased with grant funds; specifically the audit report also noted that the
        Crime Laboratory did not conduct a physical inventory of equipment purchased with federal funds as required
        by the grant. The auditors recommend that the department physically inventory assets purchased with award
        funds at least once every two years and create a process to ensure all grant-funded equipment items are added to
        the department's official property list in accordance with grant requirements.

        The following is the Baltimore Police Department's response to the above-mentioned audit findings:
        After reviewing the findings, the Baltimore Police Department Crime Laboratory had taken a physical inventory
        of all equipment in the lab and the department is working on reconciling equipment to the official inventory
        system. In addition, the Property Section of the Baltimore Police Department is under new management, and
        with the change in leadership, procedures for adding equipment items to the inventory system have been
        improved to ensure the timely and accurate collection of information related to the department's equipment.

        RESPONSE

        The Crime Laboratory agrees with the finding that a physical inventory of equipment purchased with federal
        funds should be inventoried every two years. The Crime Laboratory also agrees with the finding that official
        property records did not contain all grant-funded equipment; however, the Crime Laboratory does not manage or
        maintain the department's property records system and cannot be held accountable for the timeliness of the data
        entered into the inventory system. The Property Section Commander has been notified of the finding and a
        process has been initiated to update the official inventory system.


                                              th
                               c/o 242 West 29 Street     • Baltimore,Maryland 21211-2908


                                                              14

IMPLEMENTATION PLAN
Going forward, the Property Section Commander (currently a Major) will oversee the inventory process for
equipment in the department. The commander will oversee the maintenance of all records related to equipment
purchases, including purchase orders and equipment receipts and will be overseeing those responsible for
conducting inventory of all equipment yearly. These records will be added to the official property inventory
list.

The current plan in place to ensure equipment is included in the department's property inventory official
accountable property records system is:
                 1. For all items with cost greater than $100, once the lab receives the item, the Unit Supervisor
                    Technical Leader sends the Lab Quality Officer (or Deputy) the following information:
                    description, make, model, serial number, location (usually denoted by a room number),
                    monetary value, and whether the item was purchased with grant funds.
                 2. When the Quality Officer (or Deputy) receives this information, a Baltimore Police
                    Department property sticker is issued and attached to the equipment.
                 3. All the information in steps 1 and 2 are included in a memo that is sent to the Baltimore
                    Police Department's Property Section Commanding Officer or designee to be placed in the
                    inventory system.
                 4. Ideally, this information would be entered into the system and a confirmation would be sent
                    to the Laboratory Section.
To address this finding, the Crime Laboratory will implement a plan that makes the Unit Supervisor or
Technical Leader accountable for confirming that equipment has been entered into the system, and that a
confirmation has been received by the Laboratory Section and filed. Additionally, the Property Section
Commander has initiated a new official inventory system process.
The Baltimore Police Department works hard to achieve efficiency. With new command leadership, many of
the processes are being streamlined to achieve greater oversight.
If you have any questions, please contact me at 443-630-0083. We appreciate your assistance and direction.



Sincerely,




Francis Chiafar
Crime Laboratory Director
Baltimore Police Department




                                       th
                        c/o 242 West 29 Street       • Baltimore,Maryland 21211-2908


                                                         15

                                                                                    APPENDIX III

NATIONAL INSTITUTE OF JUSTICE RESPONSE TO THE DRAFT
                      REPORT

                                                        U.S. Department of Justice

                                                        Office of Justice Programs

                                                       Office of Audit, Assessment, and Management



                                                      Washington, D.C. 20531




April 17, 2014

MEMORANDUM TO:	                  Troy M. Meyer
                                 Regional Audit Manager
                                 Washington Regional Audit Office
                                 Office of the Inspector General

                                         /s/
FROM:	                           LeToya A. Johnson
                                 Acting Director

Response to the Draft Audit Report, Audit of the National Institute of Justice Award to the City of
Baltimore Police Department Crime Laboratory, Baltimore, Maryland, Cooperative Agreement
Numbers 2011-DN-BX-K463 and 2012-DN-BX-0067

This memorandum is in reference to your correspondence, dated March 21, 2014, transmitting the
above-referenced draft audit report for the Baltimore Police Department (BPD). We consider the
subject report resolved and request written acceptance of this action from your office.

The draft report contains one recommendations and no questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease of
review, the recommendations are restated in bold and are followed by our response.

1.	     We recommend that OJP ensure that BPD complies with award requirements that
        require assets purchased with award funds to be physically inventoried at least once
        every two years, and ensure the department’s official accountable property list
        contains all award-funded equipment items that should be included.

OJP agrees with the recommendation. We will coordinate with BPD to obtain a copy of policies
and procedures developed and implemented to ensure that property purchased with Federal funds
is inventoried at least once every two years, and properly identified in the BPD’s accountable
property inventory records.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.


                                                    16

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Gregory Ridgeway

       Acting Director

       National Institute of Justice


       Portia Graham
       Office Director, Office of Operations
       National Institute of Justice

       Charlene Hunter

       Program Analyst

       National Institute of Justice


       Minh Nguyen

       Physical Scientist

       National Institute of Justice


       Leigh A. Benda

       Chief Financial Officer


       Christal McNeil-Wright
       Associate Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief Financial Officer

       Jerry Conty
       Assistant Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief Financial Officer

       Lucy Mungle
       Manager, Evaluation and Oversight Branch
       Grants Financial Management Division
       Office of the Chief Financial Officer

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number IT20140324155718




                                                 17
                                                             APPENDIX IV

       OFFICE OF THE INSPECTOR GENERAL ANALYSIS

          AND SUMMARY OF ACTIONS NECESSARY 

                  TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of Justice Programs
(OJP) and the Baltimore Police Department Crime Laboratory (BPD). The OJP
response is incorporated in Appendix III and the BPD response is incorporated in
Appendix II of this final report.

      The following provides the OIG analysis of the response and summary of
actions necessary to close the report.

      Recommendation:

   1.	 Ensure that BPD complies with award requirements that require
       assets purchased with award funds to be physically inventoried at
       least once every 2 years, and ensure the department’s official
       accountable property list contains all award-funded equipment items
       that should be included.

      Resolved. The OJP concurred with the recommendation and will coordinate
      with BPD to obtain a copy of policies and procedures developed and
      implemented to ensure that property purchased with federal funds is
      inventoried at least once every 2 years, and properly identified in the BPD’s
      accountable property inventory records.

      We can close this recommendation once we receive and review the policies
      and procedures developed to ensure that property purchased with federal
      funds is inventoried at least once every 2 years and properly identified in the
      BPD’s accountable property inventory records.




                                         18

